                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL                 1
                                         OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM


Case Number: I07010003
                                                                     1        Page 1of 1



    I n 2004, we received a n allegation of conflict of interests (COI) against a forAer
    Division Director (DD).l After DD left his home institution (HI)2 for NSF, he
    continued to champion a project he worked on at HI. After DD left NSF, h e :
    returned to HI to work on the project. These actions raised a COI allegatioi t h a t
    was addressed in a previous case3 i n which OIG concluded there was no viol'ation of
    COI rules.
    I n Oct 2006, we received a n allegation that the DD's project a t HI recently received
    a supplement, even though its renewal proposal was declined. The complainant
    alleged there appeared to be little scientific value for awarding the supplement a s
    the project has delivered little to the scientific community. We opened this kase to
                                                                                   I
    address that allegation.
    DD h a s not received any funding from NSF since 2004; a s the complainant noted,
    his recent proposal on the project was declined. We checked the DD's co-PIS and
    found another proposal4 also submitted from HI. This proposal was a supplement
    to a previous award.5 The supplement proposal received 1E, 1E N , 1V, and 1 P.
    The NSF Program Officer (P0)6 handling the proposal wrote a Review Analysis that
    noted the strong, critical reviewer's opinions (consistent with this complaint) and
    addressed those criticisms, explained why he agreed with the favorable reviews,
    noted that further enhancements to the project will require a new proposal, and
    these funds are from the final sweep of FY 2006 funds. Since the issue of COI h a s
    been previously addressed, and PO h a s put forth a scientific rationale (based on the
    majority opinion of reviewers) for awarding the supplement, we conclude the
    allegation lacks sufficient substance to proceed. Accordingly, this case is closed.




       1   (redacted).
       2   (redacted).
       3   I04110043
       4   (redacted).
       5   (redacted).
       6   (redacted).

                                                                                       I

                                                                                       I
